uourt4* Mppeai; zu-

ioou

uuu: o

rneu:

ry: i ui o

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1660
GWENDOLYN SINGLETON,
Plaintiff - Appellant,
v.
ORANGEBURG COUNTY DISABILITIES SPECIAL NEEDS BOARD,
Defendant - Appellee.

Appeal from the United States District Court for the District of South Carolina, at
Orangeburg. Terry L. Wooten, Senior District Judge. (5:19-cv-00347-TLW)
Submitted: September 22, 2020

Decided: September 24, 2020

Before NIEMEYER, KEENAN, and FLOYD, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Gwendolyn Singleton, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

uooav+

Mppeai: £\j- ioou

l/uu:

o

rueu: ua/^it/<'U/'ii

ry; z ui o

PER CURIAM:
Gwendolyn Singleton appeals the district court’s order adopting the magistrate
judge’s recommendation to dismiss, without prejudice, Singleton’s employment
discrimination action.* The district court referred this case to a magistrate judge pursuant
to 28 U.S.C. § 636(b)(1)(B). The magistrate judge recommended that Singleton’s action
be dismissed and advised Singleton that failure to file timely and specific objections to the
recommendation would waive appellate review of a district court order based upon the
recommendation.
The timely filing of specific objections to a magistrate judge’s recommendation is
necessary to preserve appellate review of the substance of that recommendation when the
parties have been warned of the consequences of noncompliance. See Wright v. Collins,
766 F.2d 841, 845-46 (4th Cir. 1985); see also Thomas v. Arn, 474 U.S. 140 (1985).
Singleton waived appellate review of the district court’s disposition by failing to file
objections specifically challenging the magistrate judge’s recommendation. Singleton also
fails to challenge the district court’s disposition in her informal brief, which further
supports the conclusion that she has waived appellate review of the appealed-from order.
See 4th Cir. R. 34(b).

Although the district court dismissed the action without prejudice, we have
jurisdiction over this appeal. See Bing v. Brivo Sys., LLC, 959 F.3d 605, 615 (4th Cir.
2020).
2

uoumh

Mppeai: ^u- ioou

uoc: o

riieu: witnuxjtxj

ry: 001 o

Based on the foregoing, we affirm the district court’s order. We dispense with oral
argument because the facts and legal contentions are adequately presented in the materials
before this court and argument would not aid the decisional process.
AFFIRMED

3

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
ORANGEBURG DIVISION
Gwendolyn Singleton,

Case No. 5:19-cv-347-TLW

PLAINTIFF,
v.
Order
Orangeburg County Disabilities Special
Needs Board,
DEFENDANT.

Plaintiff Gwendolyn Singleton, proceeding pro se, brings this employment
discrimination action. ECF No. 14. The matter now comes before the Court for review of the
Report and Recommendation (Report) filed by the magistrate judge to whom this case was
assigned. ECF No. 23.
The magistrate judge previously ordered that the Plaintiff bring this case into proper
form for the issuance and service of process and warned the Plaintiff that failure to comply
would subject this case to dismissal for failure to prosecute. See ECF No. 11. The Plaintiff
responded by summonses and Forms USM-285 that did not comply with the court's order.
See ECF No. 15. The magistrate judge then once again ordered that the Plaintiff bring this
case into proper form for the issuance and service of process. See ECF No. 18. The Plaintiff
did not respond to this order. The magistrate judge has now issued the instant Report.
In the Report, the magistrate judge recommends that this case be dismissed for failure
to prosecute under Rule 41 of the Federal Rules of Civil Procedure. After the magistrate
judge filed the Report, Plaintiff filed objections. ECF No. 28. The objections state no facts
related to her claim. The objections do not specifically address the issues raised in the Report
1

related to dismissal for failure to prosecute or comply with the court order. The plaintiff did
attach a notice from the EEOC stating it was closing its file because "[bjased upon its
investigation, the EEOC is unable to conclude that information obtained establishes violation
of the statues." ECF No. 28-1 at 1. This matter is now ripe for decision.
In reviewing the Report, the Court applies the following standard:
The magistrate judge makes only a recommendation to the Court, to which any
party may file written objections.... The Court is not bound by the
recommendation of the magistrate judge but, instead, retains responsibility
for the final determination. The Court is required to make a de novo
determination of those portions of the report or specified findings or
recommendation as to which an objection is made. However, the Court is not
required to review, under a de novo or any other standard, the factual or legal
conclusions of the magistrate judge as to those portions of the report and
recommendation to which no objections are addressed. While the level of
scrutiny entailed by the Court’s review of the Report thus depends on whether
or not objections have been filed, in either case the Court is free, after review,
to accept, reject, or modify any of the magistrate judge's findings or
recommendations.
Wallace v. Hous. Auth. of City of Columbia, 791 F. Supp. 137, 138 (D.S.C. 1992) (citations
omitted).
In light of the standard set forth in Wallace, the Court has reviewed, de novo, the
Report and the objections. After careful review of the Report and the objections, for the
reasons stated by the magistrate judge, the Report, ECF No. 23, is ACCEPTED. Plaintiffs
objections, ECF No. 28, are OVERRULED. Plaintiffs Amended Complaint, ECF No. 14, is
DISMISSED WITHOUT PREJUDICE.
IT IS SO ORDERED.
s/ Terrv L Wooten______________
Terry L. Wooten
Senior United States District Judge
May 18,2020
Columbia, South Carolina
2

5:19-CV-00347-TLW

Date Filed 05/20/20

Entry Number 30 ' Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
ORANGEBURG DIVISION
Gwendolyn Singleton,

Case No. 5:19-cv-347-TLW

PLAINTIFF,
v.
Order
I,

Orangeburg County Disabilities Special
Needs Board,
DEFENDANT.

Plaintiff Gwendolyn Singleton, proceeding pro se, brings this employment
discrimination action. ECF No. 14. The matter now comes before the Court for review of the
t /■

Report and Recommendation (Report) filed by the magistrate judge to whom this case was..
assigned. ECF No. 23.
The magistrate judge previously ordered that the Plaintiff bring this case into proper,
form for the issuance'and service of process and warned the Plaintiff that failure to comply
would subject this case to dismissal for "failure to prosecute. See ECF No. 1L The Plaintiff
responded by summonses and Forms USM-285 that did not comply With the court's order.
See ECF No. 15. The magistrate judge then once again ordered that.the Plaintiff bring this
case into proper form for the issuance and service of process. See ECF No; 18. The Plaintiff
did not respond to this order. The magistrate judge has now issued the instant Report.
In the Report, the magistrate judge recommends that this Case be dismissed for failure
to prosecute under Rule 41 of the Federal Rules of Civil Procedure. After the magistrate
judge filed the Report, Plaintiff filed objections. ECF No. 28. The objections state no facts
- •■^5' :

-

....

.......................... ..

.

.

......

....

related to her claim. The objections do not specifically address the issues raised in the.Report
l

RECEIVED
MAR 2 9 2021
9r.Bg|M°JcT5§RCT^K

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
ORANGEBURG DIVISION
Gwendolyn Singleton,
Plaintiff,
v.

)
)
)
)
)

)
Orangeburg County Disabilities Special Needs )
Board,
)
Defendant.

C/A No. 5:19-347-TLW-PJG

ORDER AND
REPORT AND RECOMMENDATION

)
)
)

Plaintiff, Gwendolyn Singleton, a self-represented litigant, brings this employment
discrimination action pursuant to 28 U.S.C. § 1915. This matter is before the court pursuant to 28
U.S.C. § 636(b) and Local Civil Rule 73.02(B)(2) (D.S.C.).
By order dated March 4,2019, the court provided Plaintiff with the opportunity to bring this
case into proper form for the issuance and service of process. (ECF No. 11.) The order warned
Plaintiff that her failure to comply within the time permitted would subject this case to dismissal for
failure to prosecute and for failure to comply with an order of the court under Rule 41 of the Federal
Rules of Civil Procedure. Plaintiff responded by filed filing summonses and Forms USM-285 that
did not comply with the court’s order. (ECF No. 15.)
Consequently, the court issued a second order on April 2, 2019, providing Plaintiff the
opportunity to correct the deficiencies in the service documents. (ECF No. 18.) Plaintiff was again
warned that her failure to comply within the time permitted would subject this case to dismissal for
failure to prosecute and for failure to comply with an order of the court under Rule 41 of the Federal
Rules of Civil Procedure. However, the time to respond to the order has since lapsed and Plaintiff
has not responded to the April 2 order.
Page 1 of 4

6>JO[

As indicated above, Plaintiff has failed to fully comply with two orders issued by this court
and has failed to provide the necessary information and paperwork to accomplish review and
possible service of process under 28 U.S.C. § 1915. “The authority of a court to dismiss sua sponte
for lack of prosecution has generally been considered an ‘inherent power,’ governed not by rule or
statute but by the control necessarily vested in courts to manage their own affairs so as to achieve
the orderly and expeditious disposition of cases.” Link v. Wabash R.R. Co.. 370 U.S. 626, 630-31
(1962); see also Ballard v. Carlson. 882 F.2d 93, 95 (4th Cir. 1989) (“The Federal Rules of Civil
Procedure recognize that courts must have the authority to control litigation before them, and this
authority includes the power to order dismissal of an action for failure to comply with court
orders.”). As well as inherent authority, a court may sua sponte dismiss a case for lack of
prosecution and failure to comply with a court order under Federal Rule of Civil Procedure 41(b).
— at 630- In deciding whether dismissal is appropriate for a Plaintiffs lack of prosecution or
failure to comply with a court order, the United States Court of Appeals for the Fourth Circuit has
held that a court should “ascertain (1) the degree of personal responsibility of the plaintiff, (2) the
amount of prejudice caused the defendant, (3) the existence of a drawn out history of deliberately
proceeding in a dilatory fashion, and (4) the existence of a sanction less drastic than dismissal.”
Chandler Leasing Com. v. Lopez, 669 F.2d 919, 920 (4th Cir. 1982) (internal quotation marks and
citation omitted).
In the instant action, Plaintiff is proceeding pro se; therefore, she is solely responsible for
her refusal to comply with the court’s orders.' Further, because Plaintiff has failed to even respond

See Craft v. Astrue, No.l:10CV9, 2012 WL 6569021, at *2 (M.D.N.C. Dec. 17 2012)
(finding, pursuant to the standard set forth in Chandler Leasing. “Plaintiff has proceeded/jro se from
the outset, thus she has demonstrated that she is capable of filing pleadings and papers and she alone
bears the responsibility for her failure to prosecute her case.”).
Page 2 of 4

6>36[

to the court’s April 2 order, it does not appear that any sanction less drastic than dismissal is
available. See Ballard, 882 F.2d at 96 (finding the Magistrate Judge’s explicit warning that a
recommendation of dismissal would result from the plaintiffs failure to obey his order gave the
district court little alternative to dismissal because any other course would have placed the
credibility of the court in doubt and invited abuse). Therefore, this case should be dismissed
pursuant to Rule 41 (b) of the Federal Rules of Civil Procedure. Because the case is recommended
for summary dismissal prior to service of process, it is also recommended that the case be dismissed
without prejudice.
III.

Conclusion
Based on the foregoing, the court recommends this matter be dismissed for Plaintiffs failure

to prosecute and failure to comply with an order of the court pursuant to Federal Rule of Civil
Procedure 41(b).2

Paige JKjossetr
UNITED STATES MAGISTRATE JUDGE
May 10, 2019
Columbia, South Carolina
The parties are directed to note the important information in the attached
Notice ofRight to File Objections to Report and Recommendation. ”

2 Consequently, Plaintiff s motion regarding discovery is terminated as moot. (ECF No. 8.)
Page 3 of 4

Notice of Right to File Objections to Report and Recommendation
The parties are advised that they may file specific written objections to this Report and
Recommendation with the District Judge. Objections must specifically identify the portions of the
Report and Recommendation to which objections are made and the basis for such objections. “[I]n
the absence of a timely filed objection, a district court need not conduct a de novo review, but
instead must ‘only satisfy itself that there is no clear error on the face of the record in order to accept
the recommendation.’” Diamond v. Colonial Life & Acc. Ins. Co.. 416 F.3d 310 (4th Cir. 2005)
(quoting Fed. R. Civ. P. 72 advisory committee’s note).
Specific written objections must be filed within fourteen (14) days of the date of service of
this Report and Recommendation. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b); see Fed. R. Civ.
P. 6(a), (d). Filing by mail pursuant to Federal Rule of Civil Procedure 5 may be accomplished by
mailing objections to:
Robin L. Blume, Clerk
United States District Court
901 Richland Street
Columbia, South Carolina 29201
Failure to timely file specific written objections to this Report and Recommendation
will result in waiver of the right to appeal from a judgment of the District Court based upon
such Recommendation. 28 U.S.C. § 636(b)(1); Thomas v. Am. 474 U.S. 140 (1985); Wright v.
Collins, 766 F.2d 841 (4th Cir. 1985); United States v. Schronce. 727 F.2d 91 (4th Cir. 1984).

Page 4 of 4

